Report No. D-2007-090         May 3, 2007




    Managing Prepositioned Munitions in the
          U.S. European Command
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
CADS                  Containerized Ammunition Distribution System
GAO                   Government Accountability Office
GWOT                  Global War on Terrorism
NATO                  North Atlantic Treaty Organization
USAFE                 U.S. Air Forces in Europe
USAREUR               U.S. Army Europe
USCENTCOM             U.S. Central Command
USEUCOM               U.S. European Command
USMARFOREUR           U.S. Marine Corps Forces Europe
USNAVEUR              U.S. Naval Forces Europe
               Department of Defense Office of Inspector General
Report No. D-2007-090                                                        May 3, 2007
   (Project No. D2006-D000LA-0251.000)

                   Managing Prepositioned Munitions in the
                         U.S. European Command

                                 Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for managing
munitions supporting DoD prepositioning plans in a combatant command’s theater
should read this report. The report provides information on U.S. European Command
(USEUCOM) efforts to manage its prepositioned munitions program while downsizing
and transforming its forces to meet 21st-century challenges.

Background. USEUCOM is the unified combatant command responsible for Europe
and most of Africa. It also supports U.S. Central Command and the North Atlantic
Treaty Organization. The Service Components of USEUCOM are U.S. Army Europe,
U.S. Naval Forces Europe, U.S. Marine Corps Forces Europe, U.S. Air Forces in Europe,
and U.S. Special Operations Command Europe.

USEUCOM has significantly downsized its forces, infrastructure, and materiel as a result
of the end of the Cold War and ongoing DoD transformation. USEUCOM continues to
transform its forces to meet future challenges and threats within the European theater and
achieve U.S. strategic goals. The USEUCOM Service Components store and manage
prepositioned munitions in theater. U.S. Special Operations Command Europe relies on
the other Service Components for materiel for its forces.

Results. The downsizing and transforming of USEUCOM forces have allowed
munitions managers to identify excess and unserviceable munitions stored in their
stockpiles. In 2006, USEUCOM participated in Exercise Turbo Containerized
Ammunition Distribution System, shipping 1,465 containers of excess munitions back to
continental U.S. ammunition depots. In 2008, USEUCOM munitions managers plan to
participate in the exercise again to remove additional excess munitions resulting from
ongoing transformation. USEUCOM has an effective ammunition demilitarization
program for unserviceable munitions, which is managed by U.S. Army Europe.
European contractors are demilitarizing the munitions in theater, avoiding the costs of
shipping the munitions to the United States.

DoD transformation has streamlined the management of prepositioned munitions. By
realigning their forces, the Service Components are able to consolidate munitions
infrastructure and reduce their munitions requirements. U.S. Army Europe and U.S. Air
Forces in Europe are developing joint ammunition initiatives to support a rapid response
by USEUCOM to global requirements.

In addition, USEUCOM has sent excess munitions from its theater to fill munitions
shortages in other combatant commands. USEUCOM has provided more than 25,000
short tons of munitions to U.S. Central Command’s Global War on Terrorism operations.
Internal controls were adequate in the USEUCOM munitions storage areas. We
identified no material internal control weaknesses in the safety or security of the
munitions storage areas.

Summary. USEUCOM has effectively managed its prepositioned munitions program
while downsizing and continuing to transform. Munitions managers have identified
excess and unserviceable munitions during DoD transformation. USEUCOM continues
to transform its forces and review its objectives for prepositioned munitions to support
future theater and global requirements.

Management Comments. We provided a draft of this report on March 26, 2007. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    2

Review of Internal Controls                                                   2


Finding
     U.S. European Command’s Management of Prepositioned Munitions            3

Appendixes
     A.   Scope and Methodology                                               7
     B.   Prior Coverage                                                      8
     C.   Glossary                                                            9
     D.   Exercise Turbo Containerized Ammunition Distribution System 2006   10
     E.   Observations on Ammunition Storage at Munitions Sites Visited      11
     F.   Munitions Under Contract for Demilitarization                      12
     G.   Report Distribution                                                13
Background
    The U.S. European Command (USEUCOM) is one of nine unified combatant
    commands. It is the geographic combatant command responsible for more than
    90 countries covering all of Europe and some parts of Africa. Its mission is to
    promote stability throughout its area of responsibility. USEUCOM comprises the
    following Service Components: U.S. Army Europe (USAREUR), U.S. Naval
    Forces Europe (USNAVEUR), U.S. Marine Corps Forces Europe
    (USMARFOREUR), U.S. Air Forces in Europe (USAFE), and U.S. Special
    Operations Command Europe. As of October 2006, USEUCOM had a force of
    more than 100,000, which it continues to reduce.

    In addition to carrying out its own mission, USEUCOM supports other combatant
    commands and the North Atlantic Treaty Organization (NATO). It is a
    supporting combatant command to U.S. Central Command (USCENTCOM) for
    Global War on Terrorism (GWOT) operations; it enhances transatlantic security
    through support to NATO; and it continues to promote regional stability and U.S.
    interests in Europe, Africa, the Middle East, and Russia.

    Since the end of the Cold War, USEUCOM has been transforming to meet future
    challenges and threats. During the Cold War, USEUCOM was a fight-in-place
    force prepared for a large-scale conflict. After the Cold War, USEUCOM ceased
    having an operations plan—a detailed plan for contingencies to which resources
    have been committed—and developed the following concept plans, which do not
    commit forces or resources, for its area of responsibility:

           •   U.S. support to NATO “out of area” operations (South Caucasus
               Region),

           •   counterproliferation of weapons of mass destruction,

           •   peace operations (West Africa),

           •   defense of Southeast Turkey, and

           •   stability operations for Nigeria.

    USEUCOM continues to refine its daily operations and strategically reposition its
    forces to support DoD transformation. The repositioning of forces has affected
    how the Services preposition war reserve materiel in a combatant command
    theater.

    USEUCOM prepositions munitions to give itself a strategic advantage in areas
    with high potential for conflict. Before USEUCOM prepositioned munitions in
    its theater, supplies and equipment were brought from the continental United
    States to the location of conflict by airlift or sealift. Compared with moving
    munitions from the United States, prepositioning munitions in the European
    theater is more cost-effective than airlift and is quicker than sealift.

    Prepositioning on Land. USEUCOM stores munitions on land to support
    theater and global requirements. USEUCOM has munitions storage areas in
    several countries—Germany, Greece, Italy, Norway, Spain, and the United

                                         1
     Kingdom. The Service Components are responsible for managing munitions
     storage areas, while European contractors assist with daily operations such as
     security and handling.

     Prepositioning on Ships. DoD prepositions materiel aboard ships to serve as
     swing stocks for the combatant commands. See Appendix C for definitions of
     swing stocks and other terms. DoD has prepositioned several ships in the
     USEUCOM theater. The ships are not dedicated to a theater but can be allocated
     and apportioned to a combatant commander as needed. The Military Sealift
     Command oversees the DoD afloat prepositioning program. Of the 36 ships in
     the program, 7 predominantly store bulk containerized sustainment ammunition.

     Participating in Turbo Containerized Ammunition Distribution System.
     Exercise Turbo Containerized Ammunition Distribution System (CADS) tests
     joint capabilities to transport munitions in 20-foot military shipping containers.
     The Joint Chiefs of Staff direct and fund Exercise Turbo CADS, and the U.S.
     Transportation Command sponsors the exercise. In 2006, USEUCOM used
     Exercise Turbo CADS to remove excess munitions from the European theater to
     continental U.S. ammunition depots. See Appendix D for details about
     USEUCOM participation in Exercise Turbo CADS 2006. USEUCOM is
     planning to participate in Exercise Turbo CADS 2008 to remove additional
     munitions.


Objectives
     Our overall audit objective was to evaluate management of prepositioned
     munitions by USEUCOM. Specifically, we reviewed the effect that DoD
     transformation and the Global War on Terrorism have had on the prepositioned
     munitions program in the USEUCOM theater. See Appendix A for a discussion
     of the scope and methodology. See Appendix B for prior audit coverage related
     to the objectives.


Review of Internal Controls
     USEUCOM internal controls over munitions storage areas provided adequate
     safety and security. We identified no material internal control weaknesses,
     although we did not test inventory accountability. See Appendix E for
     information on the condition of the storage areas visited.




                                          2
           U.S. European Command’s Management
           of Prepositioned Munitions
           USEUCOM managed prepositioned conventional munitions while
           carrying out DoD transformation and supporting the Global War on
           Terrorism (GWOT). Munitions management during USEUCOM
           transformation involved:

                   •   participating in Exercise Turbo CADS, which shipped excess
                       munitions back to ammunition depots in the continental United
                       States, and

                   •   using European contractors as part of an ammunition
                       demilitarization program to dispose of expired and
                       unserviceable munitions.

           In addition, USEUCOM provided 25,000 short tons of munitions to
           USCENTCOM GWOT operations. As a result, USEUCOM has been able
           to remove excess munitions, support other combatant commands, and
           manage remaining munitions stockpiles.


Management of Prepositioned Munitions
    USEUCOM has an effective prepositioned munitions program. As part of that
    program, the Service Components of USEUCOM—with the exception of U.S.
    Special Operations Command Europe—manage their munitions separately and
    store them in various locations. U.S. Special Operations Command Europe forces
    rely on the other Service Components for materiel. Site visits to six ammunition
    storage facilities revealed the munitions are stored in secure facilities and in
    serviceable condition. See Appendix E for a list of the munitions sites visited and
    the auditors’ observations on ammunitions storage.

    U.S. Army Europe. Before June 2006, the Army stored two types of munitions
    stocks in Europe. U.S. Army Materiel Command managed Army prepositioned
    stocks, while USAREUR managed theater stocks. Army prepositioned stocks are
    prepositioned materiel for forces not stationed in theater to fall in on; theater
    stocks are stored to support forces stationed in theater.

    U.S. Army management identified excess prepositioned munitions in the
    European theater. USAREUR and the Army Materiel Command transferred some
    excess to fill munitions shortages in the other combatant commands. USAREUR
    participated in Exercise Turbo CADS 2006, shipping 3,937 short tons of
    additional excess munitions back to U.S. ammunition depots. The Army used the
    exercise to remove all its prepositioned stock munitions, leaving theater stocks as
    the only munitions in the USEUCOM theater.

    U.S. Naval Forces Europe. USNAVEUR prepositions ordnance in the
    Mediterranean Sea that supports USEUCOM and global requirements.
    USNAVEUR manages surface and aviation ordnance for the Navy. Additionally,
    USNAVEUR prepositions ground munitions and manages aviation munitions for

                                         3
the Marines. Prepositioned ordnance supports Fleet Forces Command and Marine
Forces Command forces deploying in support of USEUCOM and global
operations. The prepositioned ordnance program of USNAVEUR also supports
U.S. Naval Forces Central Command, which does not preposition ordnance in the
USCENTCOM theater.

USNAVEUR ordnance managers identified and are managing excess ordnance in
their stockpiles. USNAVEUR shipped 20 containers of excess ordnance to
ammunition depots in the continental United States during Exercise Turbo
CADS 2006. Also, USNAVEUR continues to use space available aboard passing
Navy ships to remove excess ordnance from the theater.

U.S. Marine Corps Forces Europe. As of October 2006, there were no Marine
combat forces assigned to the European theater. USMARFOREUR prepositions
munitions for deploying Marine forces supporting USEUCOM and global
requirements. The Marine Prepositioning Programs Section, the Marine Corps
Systems Command, and USNAVEUR manage the Marines’ prepositioned
munitions stockpiles in Europe.

USMARFOREUR prepositions both aviation and ground munitions in Spain and
Norway. Naval Station Rota, in Spain, stores prepositioned munitions that
support Marine Expeditionary Units and air combat elements. The Marine Corps
Prepositioning Program-Norway, mandated by the Secretary of Defense in 2005,
stores 30 days of munitions that support a brigade-level Marine Air-Ground Task
Force.

The managers of the Marine Corps European munitions stockpiles identified and
are managing excess munitions. USMARFOREUR participated in Exercise
Turbo CADS 2006, shipping 209 containers of excess munitions to continental
U.S. ammunition depots.

U.S. Air Forces in Europe. USAFE stores and manages munitions known as
war reserve materiel in the USEUCOM theater. War reserve materiel consists of
conventional munitions and precision guided missiles. USAFE munitions support
USEUCOM concept plans, NATO, GWOT operations, and the operations plans
of both USCENTCOM and U.S. Pacific Command.

USAFE munitions managers identified and are managing excess prepositioned
munitions in the USEUCOM theater. USAFE participated in Exercise Turbo
CADS 2006 to move 772 containers of munitions to continental U.S. ammunition
depots, including all munitions from the Moron, Spain, munitions storage area.
USAFE has identified more than 12,000 short tons of additional excess munitions,
which it plans to remove from theater during Exercise Turbo CADS 2008.

Demilitarization Program. USEUCOM has an ammunition demilitarization
program for its Service Components; USAREUR, 21st Theater Support
Command, manages this program. As of October 2006, there were contracts in
place with European contractors to demilitarize more than 4,600 short tons of
expired and unserviceable munitions. The Services’ munitions managers have
identified additional munitions needing demilitarization and will require further
funding. The demilitarization of ammunition in the European theater avoids
significant costs of transporting unserviceable munitions to the continental United
States. Appendix F contains a list of items scheduled for demilitarization.

                                     4
Transformation’s Effect on Prepositioned Munitions
     DoD transformation has resulted in USEUCOM strategically restructuring its
     forces to meet future theater and global challenges. Transformation has caused
     USEUCOM Service Components to reduce their stockpiles to support smaller and
     more capable forces.

     U.S. Army Europe. USAREUR is transforming its munitions stockpiles,
     infrastructure, and forces. During the Cold War, USAREUR prepositioned more
     than 300,000 short tons of ammunition at more than 100 ammunition storage
     points. As of October 2006, USAREUR had 40,000 short tons of munitions at
     five ammunition storage points within the USEUCOM theater. The new
     munitions requirements will support brigade combat teams, which are replacing
     heavy armored divisions. Munitions managers in USAREUR have reduced costs
     by consolidating and closing ammunition storage facilities.

     U.S. Naval Forces Europe. In 2005, USNAVEUR reduced its ordnance
     requirement from 2.3 million pounds net explosive weight to 1.0 million pounds
     net explosive weight. USNAVEUR continues to consolidate its ordnance storage
     infrastructure, with plans to stop using two of five ordnance depots.
     USNAVEUR identified more than $3 million in potential monetary benefits from
     reduced annual operating costs associated with this consolidation.

     U.S. Marine Corps Forces Europe. DoD transformation has primarily affected
     the Marines’ prepositioning of munitions in Norway. The Marines began
     prepositioning munitions in Norway during the Cold War, under the Norway Air-
     Landed Marine Expeditionary Brigade program. This program limited the
     Marines’ use of stored materiel to the defense of Norway. In 2005, the Secretary
     of Defense signed a new memorandum of agreement transforming the program
     into the Marine Corps Prepositioning Program-Norway. This program allows for
     prepositioned materiel stored in six caves in Norway to support USEUCOM and
     global mission requirements. USMARFOREUR continues to review and adjust
     its prepositioning objectives to better support the Marines’ global requirements.

     U.S. Air Forces in Europe. USAFE continues to transform its conventional
     munitions program. During the Cold War, USAFE stored more than 260,000
     short tons of munitions at 57 munitions storage areas in the USEUCOM theater.
     As of October 2006, USAFE had stored approximately 44,000 short tons at nine
     locations. USAFE stores munitions at six munitions storage locations and the
     three main operating bases: Aviano Air Base, Spangdahlem Air Base, and Royal
     Air Force Lakenheath. USAFE is planning to consolidate the munitions storage
     locations into three munitions hubs that will provide up to 30 days of munitions to
     the main operating bases. USAFE plans to close a munitions storage area in
     Hochspeyer, Germany, during 2007.

     Joint Ammunition Initiatives. USAREUR and USAFE are collaborating on
     joint ammunition initiatives. These Service Components are developing rapid-
     response packages that will be stored at air bases in the USEUCOM theater. Joint
     initiatives will increase USEUCOM capabilities for immediate response. In an
     emerging initiative, the Army may transfer the munitions storage area at Camp
     Darby in Italy to USAFE. By controlling Camp Darby, USAFE would enhance


                                          5
    its capability to distribute bulk and containerized ammunition in support of
    USEUCOM task force requirements.


Support to GWOT on Munitions
    USEUCOM has supported and continues to support USCENTCOM GWOT
    operations. As of October 2006, four of the USEUCOM Service Components had
    supported GWOT operations with more than 25,000 short tons of munitions. The
    table below details the ammunition that USEUCOM Service Components have
    provided to USCENTCOM GWOT operations.

     Munitions Provided to Global War on Terrorism Operations by the
                        U.S. European Command
                            (as of October 2006)

         Service             Quantity
        Component          (short tons)                  Types of Munitions
       USAREUR                  2,000          Hellfire missiles and conventional munitions
       USNAVEUR                 8,000         Tomahawk missiles and conventional munitions
       USMARFOREUR              1,700          Maverick missiles and conventional munitions
       USAFE                   13,800          Precision guided and conventional munitions
        Total                  25,500




Summary
    USEUCOM has effectively managed its prepositioned munitions program while
    downsizing and continuing to transform its forces. Munitions managers have
    identified excess and unserviceable munitions during DoD transformation and
    used Exercise Turbo CADS 2006 to move excess munitions from USEUCOM
    theater to ammunition depots in the continental United States. USEUCOM is
    working with European contractors to demilitarize expired and unserviceable
    munitions in theater. USEUCOM has supported USCENTCOM GWOT
    operations with munitions and filled munitions shortages in other combatant
    commands. USEUCOM continues to transform its forces and review its
    objectives for prepositioned munitions to support future theater and global
    requirements.




                                          6
Appendix A. Scope and Methodology
    We evaluated the management of prepositioned munitions in the USEUCOM
    theater. Additionally, we evaluated the effects that DoD transformation and
    GWOT have had on the prepositioned munitions programs in the European
    theater. We reviewed the findings and recommendations of prior audits by the
    Government Accountability Office (GAO), U.S. Army Audit Agency, and Naval
    Audit Service. We reviewed applicable regulations and guidance, including the
    2006 Quadrennial Defense Review, “Transformation Planning Guidance,” DoD
    Instruction 3000.4, and DoD Directive 3110.6.

    We conducted interviews with officials from the Joint Staff, Army Materiel
    Command, Marine Corps Systems Command, Military Sealift Command,
    USEUCOM, USAREUR, USNAVEUR, USMARFOREUR, and USAFE to
    discuss the management of prepositioned munitions and effects that DoD
    transformation and GWOT have had on the prepositioned munitions program.
    Additionally, we conducted site visits at Miesau Army Depot, Naval Air Station
    Sigonella, Hammerkammen and Kavlaa munitions storage caves, Ramstein Air
    Base, and Spangdahlem Air Base to observe the Service Components’
    management of munitions.

    We performed this audit from September 2006 through January 2007 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of DoD Support Infrastructure Management and DoD Supply
    Chain Management high-risk areas.


Internal Controls Program Review
    DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
    Procedures,” January 4, 2006, requires DoD organizations to implement a
    comprehensive system of management controls that provide reasonable assurance
    that programs are operating as intended and to evaluate the adequacy of the
    controls.

    Scope of the Review of the Internal Controls Program. We reviewed the
    internal control program for the munitions storage areas. Specifically, we
    reviewed the safety and security procedures at the munitions storage areas. We
    did not test inventory accountability.

    Adequacy of Internal Controls. The U.S. European Command’s munitions
    storage areas’ internal controls over safety and security were adequate; we
    identified no material internal control weaknesses.



                                        7
Appendix B. Prior Coverage
       During the last 5 years, the Government Accountability Office (GAO), the
       U.S. Army Audit Agency, and the Naval Audit Service have issued six reports
       discussing prepositioned war reserve materiel in the Military Departments and
       combatant commands.


GAO
       GAO Report No. 05-427 “Defense Logistics: Better Management and Oversight
       of Prepositioning Programs Needed to Reduce Risk and Improve Future
       Programs,” September 6, 2005

       GAO Report No. 05-765R “Defense Management: Munitions Requirements and
       Combatant Commander’s Needs Still Require Linkage,” August 12, 2005


Army
       U.S. Army Audit Agency Report No. A-2006-0197-ALE, “Army Prepositioned
       Stocks in Europe,” August 30, 2006

       U.S. Army Audit Agency Report No. A-2006-0200-ALL, “Management of Army
       Prepositioned Stocks – U.S. Army Materiel Command,” August 23, 2006

       U.S. Army Audit Agency Report No. A-2006-0149-ALE, “Military Construction
       Projects Supporting Army Prepositioned Stocks in Europe,” June 29, 2006


Navy
       Naval Audit Service Report No. N2006-0033, “Models Used by the Marine Corps
       to Determine Requirements and Budget for Ammunition,” June 30, 2006




                                           8
Appendix C. Glossary
   Afloat Prepositioning – Prepositioning of ships loaded with equipment and
   supplies (including ammunition and petroleum) as an alternative to land-based
   programs. This concept provides ships and on-board force support equipment and
   supplies positioned near potential crisis areas for rapid delivery to joint airlifted
   forces in the area of operations. Afloat prepositioning enhances a force’s
   capability to respond to a crisis quickly.

   Concept Plan – An abbreviated operations plan. It may require considerable
   expansion or alteration to convert it into a complete operations plan or operation
   order.

   Conventional Ammunition – A device charged with explosives, propellants,
   pyrotechnics, or initiating composition for use in connection with defense or
   offense, including demolitions. Conventional ammunition includes small arms,
   mortar, cannon, artillery, and gunship ammunition, as well as bombs, rockets,
   projectiles, landmines, grenades, demolition materiel, flares, and pyrotechnics.
   Also known as conventional munitions.

   Net Explosive Weight – The actual weight in pounds of explosive mixtures or
   compounds that is used to determine explosive limits.

   Operations Plan – A complete and detailed plan for the conduct of military
   operations that is prepared in response to actual and potential contingencies. It
   contains a full description of the concept of operations, including applicable
   annexes and time-phased force and deployment data. It identifies the specific
   forces, functional support, and resources required to execute the plan.

   Ordnance – Ammunition, explosives, chemicals, pyrotechnics, bombs, weapon
   systems, and the support equipment required to operate a weapon.

   Short Ton – 2,000 pounds

   Sustainment Stocks – Stocks of materiel that support the execution of approved
   operations plans beyond the initial period covered by basic stocks and until
   resupply is available.

   Swing Stocks – Swing stocks are positioned afloat or ashore and are capable of
   supporting the requirements of more than one contingency in more than one
   theater of operations.

   Theater – The geographical area outside the continental United States for which
   a combatant commander has been assigned responsibility.




                                         9
Appendix D. Exercise Turbo Containerized
             Ammunition Distribution
             System 2006
              Table D-1. Composition of Shipment for Exercise Turbo CADS

                   USEUCOM Component                Containers Shipped
                   USAREUR                                 464
                   USNAVEUR                                 20
                   USMARFOREUR                             209
                   USAFE                                   772
                     Total                               1,465

Military Sealift Command contracted two ships to move the 1,465 containers of
serviceable munitions to continental U.S. munitions depots.


 Table D-2. Continental U.S. Ammunition Depots That Received Excess Munitions

        Destination                     Location                  Total Containers
Anniston Army Depot                   Anniston, AL                        204
Crane Army Ammunition                   Crane, IN                         154
Activity
Indian Head Division, Naval         Indian Head, MD                         3
Surface Warfare Center
Letterkenny Army Depot              Chambersburg, PA                        7
Lexington-Blue Grass Army            Richmond, KY                         314
Depot
McAlester Army                       McAlester, OK                        310
Ammunition Plant
Red River Army Depot                 Texarkana, TX                         89
Tooele Army Depot                      Tooele, UT                         383
Whiteman Air Force Base           Johnson County, MO                        1
 Total                                                                   1,465




                                          10
Appendix E. Observations on Ammunition
             Storage at Munitions Sites Visited
   Service                                                                  Auditors’ Storage
  Component                Site             Location       Date of Visit      Observations*
USAREUR              Miesau Army         Kaiserslautern,   Oct. 24, 2006    Fair/Good
                     Depot               Germany
USNAVEUR             Naval Air         Sigonella,          Nov. 1, 2006     Good
                     Station Sigonella Sicily
USMARFOREUR Hammerkammen Trondheim,                        Nov. 6, 2006     Excellent
            cave         Norway
USMARFOREUR Kavlaa cave                  Trondheim,        Nov. 7, 2006     Excellent
                                         Norway
USAFE                Ramstein Air        Kaiserslautern,   Oct. 17, 2006    Good/Excellent
                     Base                Germany
USAFE                Spangdahlem         Spangdahlem,      Oct. 18, 2006    Good/Excellent
                     Air Base            Germany


The auditors observed the conditions of USEUCOM ammunition storage areas. The
following ratings are based on auditor observations because USEUCOM did not have
promulgated guidance.

* Excellent – The ordnance is safe from the elements in a climate-controlled facility.
  Good – The ordnance is safe from the elements but not in a climate-controlled facility.
  Fair – The facility is not climate controlled, lacks interior lighting, and has exterior
   corrosion and a damp interior but is able to meet mission requirements.
  Poor – The ordnance is not safe from the elements.




                                            11
Appendix F. Munitions Under Contract for
            Demilitarization
                        (as of October 2006)


            Type of Munitions                    Short Tons
Dragon missiles                                      136
Cluster bombs-Norway                                 789
Non-self-destruct anti-tank mines                    928
Phosphorus-filled munitions                          267
Pyrotechnic items                                    384
Hazardous classes 1.1-1.4 and inert items          2,168
 Total                                             4,672




                                            12
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Head Commander, U.S. Army Materiel Command

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Deputy Naval Inspector General For Marine Corps Matters
Inspector General of the Marine Corps

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. European Command
Commander, U.S. Central Command
Commander, U.S. Transportation Command




                                          13
Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, and Foreign Affairs, Committee on Oversight
  and Government Reform




                                         14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Donald A. Bloomer
Keith M. Owens
Leon D. Bryant
Bryan M. Chavez
Jessica R. Crotts
Alan J. Woolard
Allison E. Tarmann




                                   15
